       Inspector General
475954475954


          IMPLEMENTATION OF FOOD ASSISTANCE PROGRAMS 


                                        LESSONS LEARNED 


       FROM AN OFFICE OF INSPECTOR GENERAL PERSPECTIVE 





                      Photo of hillside terraces in Rwanda built by food-for-work beneficiaries.




               Photograph of sacks of soya-fortified bulgur being stored at a warehouse in Madagascar
                                                     July 2008
                                -2-




CONTENTS
 Executive Summary…………………………………………………………………….                  3    


 Introduction………………………………………………………………………….                     4    


 Review of Audits and Investigations…………………………………………………        4


 Significant Audit Findings…………………………………………………………….            4


 Listing of P.L. 480 Audit Reports 2000—2008……………………………………….. 6 


 Significant Investigations……………………………………………………………..           9


 Conclusion and Areas for Examination…………………………………………….. 10 

                                              -3-


EXECUTIVE SUMMARY 

        As the U.S. Agency for International Development (USAID) prepares to significantly
expand food assistance programs across the world, it is particularly important for the Agency
to reflect upon both the successes and challenges of past implementation efforts.

        The Office of Inspector General has conducted a review of audits and investigations
involving food aid programs over the past 8 years and is providing this report to share trends
and lessons learned with current program implementers.

        The review found four systemic issues that should be addressed in future food security
programs: (1) management and oversight controls, (2) an inability to obtain appropriate data
from implementing contractors to make decisions about the effectiveness of programs, (3)
diversion of funds and other illicit acts, and (4) recovering losses once they are discovered.

        This report contains details about the circumstances surrounding each of these issues,
and it provides suggestions to improve the implementation of future food assistance programs.

      We hope that the report is beneficial to program implementers, and we look forward
to working with USAID as it addresses the critical issue of providing food assistance in the
months and years ahead.
                                               -4-


INTRODUCTION 

        As the U.S. Agency for International Development (USAID) prepares to expand its food
assistance programs in light of recent natural disasters and economic and health-related crises
worldwide, the Office of Inspector General (OIG) is providing this report to highlight problems
uncovered during audits and investigations of programs implemented under Public Law (P.L.)
480.

         Providing other nations with food assistance is a high priority of the administration, as
President Bush has supported substantial funding increases for these programs. Food assistance
will likely continue to be a priority of the administration and Congress in future years. It is
OIG’s responsibility to work with USAID to minimize the risk of food assistance funding being
subject to misappropriation or waste.

       This report summarizes significant findings from audits and investigations conducted
from 2000 to 2008 and possible opportunities to improve program effectiveness for
implementers of USAID food assistance programs.

         By providing this information to USAID as it endeavors to address the new challenges
that lie ahead, OIG hopes to help USAID to work proactively to prevent fraud, waste, and
abuse in its food assistance programs.

REVIEW OF AUDITS AND INVESTIGATIONS
        Between 2000 and 2008, the Office of Inspector General conducted 19 audits and
8 investigations of USAID programs implemented under P.L. 480. These activities, which
primarily covered programs in Africa and the Latin America and Caribbean region, identified
several recurring programmatic issues.

SIGNIFICANT AUDIT FINDINGS
         Data Quality — Data quality problems were found in just over one-third of the audits
conducted. In several instances, missions had not conducted quality assessments of data related
to food assistance programs, and incomplete and inaccurate results had been reported to
Washington. In the April 2008 audit in Rwanda, for example, the report cited several factors
that contributed to problems with data quality, including lack of validation by cooperating
sponsors, inconsistent monthly reports from feeding centers, limited data review by mission
staff, and staff reductions at the mission.

        Beneficiaries — In some cases, beneficiaries were denied food if they did not pay a
nominal fee to cover administrative expenses. In others, feeding centers provided food rations
to people who did not meet the age requirements stipulated in the subagreements. In the case
of the P.L. 480 program in Guatemala, which was audited in September 2003, one sponsor was
                                               -5-

requiring payments from recipients—in violation of Federal regulations—before they received
food.

         Cost Efficiencies — Several audits found practices that led to potentially higher costs
that could have been avoided (e.g., relying on one buyer in food monetization programs versus
open and competitive sales, and delays in obtaining import permits and licenses that led to
increased storage and insurance costs). Personnel costs of a cooperating sponsor in Haiti,
identified in a 2001 audit, ranged up to 73 percent of its operating budget. This same audit
found that transportation costs had not been reviewed to determine whether internal or
contracted transportation would have been more cost-effective. In addition, the audit found
that storage and distribution costs were extremely high and that a review was needed to
determine whether operations could be consolidated.

         Site Visits — In approximately 40 percent of the audits conducted, problems were
identified with either the frequency of or the procedures for conducting site visits. Site visits
performed by the missions were limited in scope, were not performed systematically, or were
not properly documented. In a February 2007 audit in Burkina Faso, the contractor did not
know whether the schools in its school feeding program were being visited twice a year as
required because no system existed to track those visits. OIG noted that the program was
vulnerable to theft of the donated commodities.

        Loss Claims — Missions did not track, review, or follow up on loss claims to ensure
collection. At the time of the audits included in this review, more than $340,000 in loss claims
were outstanding and had not been resolved.

        Cost Recovery — Missions did not have processes in place to measure actual cost
recovery of monetized commodities. USAID policy requires that cooperating sponsors strive
to achieve at least full cost recovery with each monetization transaction. Sales prices for
monetized commodities determine the amount of resources that will be available for activities
aimed at achieving food assistance impact. Accordingly, the difference between the costs
associated with the purchase and transport of the commodity and the amount of proceeds
generated represents the amount of resources not available for programming. In this respect,
cost recovery benchmarks act as a measure of accountability, ensuring that monetization
resources are used efficiently.
                                                   -6-


LISTING OF P.L. 480 AUDIT REPORTS 2000–2008
The following chart provides a summary of all P.L. 480 audits conducted during the review timeframe
and their findings:

Mission/Report         Description of Findings                                  Types of Findings
USAID/Rwanda           Feeding centers gave USAID-provided food rations to      Beneficiaries
4-696-08-003-P         people who did not meet age requirements in
(April 30, 2008)       subagreements.
                       The performance management plan did not                  Performance
                       incorporate the mission’s direct food aid distribution   management plan
                       program.
                       Reported accomplishments did not meet data quality       Data quality
                       standards for integrity, precision, and reliability.
Summary Report of      Subgrantees did not use the USAID brand on projects      Branding
Worldwide Audits       funded with USAID monetization funds.
9-000-07-010-P
(September 27, 2007)
USAID/Burkina Faso     A cooperating sponsor did not take action to help        Lack of action
7-624-07-001-P         ensure that planned outputs were achieved.
(February 27, 2007)    Reported results were not accurate or adequately         Data quality
                       documented.
                       A cooperating sponsor did not track monitoring visits.   Site visits
USAID/Mozambique       The mission did not perform data quality assessments     Data quality
4-656-07-003-P         for its monetization program.
(December 22, 2006)    Site visits were not documented.                         Site visits
USAID/Guatemala        Only one commodity was monetized, rather than            Reliance on one
1-520-07-002-P         using a market basket approach.                          commodity
(November 27, 2006)
                       One large buyer was used, rather than open and           Lack of competition
                       competitive sales.
                       The contract, which shifted responsibility for losses    Contract not enforced
                       from seller to buyer, was not enforced.
                       Damages were not recovered from shipping company.        Damages not
                                                                                recovered
                       Taxes retained by the host country could have been       Host country
                       used to increase host country contributions.             contributions
USAID/Haiti            The strategic plan and performance management plan       Performance
9-521-06-010-P         were not updated.                                        management plan and
(September 28, 2006)                                                            strategic plan
Summary Report of      The review of commodity loss claims was inadequate.      Loss claims
Worldwide Audits
9-000-04-002-P
(March 31, 2004)

                       Tracking schedules for commodity loss claims were        Loss claims
                       inaccurate.
                       Site visits were limited in scope and were not           Site visits
                       performed systematically.
                       Beneficiaries were denied food or required to pay.       Beneficiaries
                                                    -7-

Mission/Report         Description of Findings                                    Types of Findings
USAID/Ethiopia         The mission did not follow up to resolve a partner’s       Loss claims
4-663-04-002-P         commodity loss and claim reports.
(included in summary
report)
(November 21, 2003)
                       Commodity loss claims were not adequately                  Loss claims
                       reviewed.
                       Partners’ warehouses were not adequately                   Site visits
                       monitored.
USAID/Haiti            Personnel costs ranged from 48 percent to                  High personnel costs
1-521-04-001-P         73 percent of the cooperating sponsors’ local
(October 20, 2003)     operating budget. The high costs reduced the amount
                       of available resources that could be used elsewhere.
                       A personnel management survey should have been
                       performed to determine the proper levels of staffing
                       needed by each cooperating sponsor.
                       No formal review had been conducted to determine           Transport costs
                       whether internal transportation or contracted
                       transportation was more cost effective.
                       Food storage and distribution costs were extremely         Food storage and
                       high and varied among the cooperating sponsors. A          distribution costs
                       review was needed to determine whether a
                       duplication of efforts existed or consolidation of
                       operations would be cost-effective.
                       Although there were general discussions, no specific       Coordination
                       agenda or plan was set for formal coordination,
                       especially on administrative issues such as transport,
                       food storage, personnel, and administrative
                       maintenance.
USAID/Ghana            Site visits were selected on a haphazard basis. No         Site visits
7-641-04-001-P         criteria, such as the type of food aid provided, the
(included in summary   dollar value of the assistance, or the size of the
report)                beneficiary population, were used for the selection.
(October 15, 2003)     Data quality assessments were not conducted on the         Data quality
                       information reported in the annual report to
                       Washington.
                       The mission did not follow up on the collection of         Claims for losses
                       outstanding claims for losses of P.L. 480 commodities.

USAID/Guatemala        Beneficiaries “voluntarily” paid a nominal fee to cover    Beneficiaries
1-520-03-008-P         some of the administrative expenses before receiving
(included in summary   benefits. However, some beneficiaries who had not
report)                paid a fee were refused benefits.
(September 26, 2003)
USAID/Madagascar        The mission was not performing site visits on a           Site visits
9-687-03-010-P          regular basis, and the visits that were conducted were
(included in summary    often limited to inspecting warehouse conditions, with
report)                 no review or analysis of inventory and commodity
(September 24, 2003)    distribution records. If site visits had been conducted
                        regularly, the mission would have avoided the
                        following situations:
                       •      P.L. 480 commodities were substituted for
                              locally produced rice.
                                                        -8-

Mission/Report               Description of Findings                                Types of Findings
                            •    The mission was unaware of commodity
                                 transfers among districts.

                            The mission’s advance requests for commodities were     Commodity requests
                            reviewed, but reviews were limited in scope and did
                            not take into consideration the projected
                            participation levels.
                            There was no followup action on the commodities         Loss claims
                            loss claims. There was inadequate tracking of
                            commodity losses.
Survey of Principal         No findings.
Processes
9-000-03-001-S
(May 23, 2003)
USAID/India                 Recordkeeping problems were identified. Food labels     Recordkeeping,
5-386-02-003-P              did not specify that the food was donated by the        branding, and poor
(August 29, 2002)           United States. Some commodities were not stored         storage conditions
                            properly.
                            Food was detained by the host government because        Increased storage and
                            of concerns about genetic modification.                 insurance costs

USAID/Haiti                 Sites for inspection were not randomly selected.        Site visits
1-521-02-006-P
(January 28, 2002)
USAID/Peru                  Reported results were inaccurate.                       Data quality
1-527-00-002-P              Data quality was not assessed on indicators.            Data quality
(May 5, 2000)               There were no targets for USAID’s results from          Targets
                            P.L. 480 funds.
                            Pending loss claims were not yet resolved.              Loss claims
USAID/Peru                  There was no plan for the number of site visits to be   Site visits
1-527-00-003-P              conducted by Foreign Service national staff.
(May 5, 2000)               Nine of fifteen results reported by cooperating         Data quality
                            sponsors were inaccurate. The mission did not
                            ensure that sponsor had effective procedures to
                            check reliability of results. The mission needed to
                            verify results reported for 2000 and 2001.
USAID/Washington            USAID did not have a process in place to measure        Cost recovery
(site visits to Kenya and   actual cost recovery.
Uganda)                     USAID did not have a system in place to track actual    Cost recovery
9-000-00-002-P              cost recovery.
(March 29, 2000)
USAID/Guatemala             Cooperating sponsors’ quarterly loss reports were       Loss reports
1-520-00-001-P              inconsistent.
(January 21, 2000)          No formal assessments was conducted on the              Assessments on
                            storage, care, and handling of commodities by           storage and handling
                            participating organizations.
                                                -9-


SIGNIFICANT INVESTIGATIONS

       Over the past 8 years, OIG has conducted several investigations of alleged fraud related to
USAID’s food assistance programs. The following issues were identified in two recent investigations,
which the Agency should address as it implements food assistance programs in the future.

       Insufficient Management Controls — OIG is concerned about overall management
controls put in place by contractors to ensure that subcontractors are not diverting resources.
Although actions have now been taken as a result of our investigations to put more stringent
oversight procedures in place, there still may be other opportunities for fraud in future
implementation efforts.

        Incomplete and Delayed Reporting of Losses — Initial reports of losses to OIG,
which were made almost a year after the prime contractor was notified about the
discrepancies, did not include estimates of the cost of the missing commodities. Four months
later, OIG was notified that nearly $900,000 worth of commodities had been diverted, thereby
delaying the discovery of the seriousness of these losses.

         Significant Percentages of Commodities Being Diverted — In one instance, more
than 90 percent of commodities were not delivered to their intended beneficiaries. According
to an independent auditor hired by the contractor, most of the beneficiary lists appeared to be
fictitious and some distributions were reported to have been made to nonexistent locations.

        Falsification of Documents — Investigative efforts by USAID OIG and Immigration
and Customs Enforcement identified particular supervisors employed by a subcontractor who
directed the creation of fictitious names and the use of employees’ own thumbprints on
beneficiary lists in order to create the illusion of proper distribution of food. Employees
interviewed said they believed that most of the documents in the company’s distribution files
were fabricated, and they said that they were instructed to sign for deliveries that were missing
as much as 50 percent of the commodities.

        Attempted Bribery — OIG investigators learned that a former security guard
associated with a subcontractor had witnessed company employees documenting false
quantities of food being loaded onto delivery trucks and had been offered a bribe to remain
quiet about the activities. The former guard suspected that commodities were being sold on
the black market.

         Attempted Intimidation of Implementing Personnel — When one contractor
initiated an internal investigation into suspected commodity diversion, the contractor’s staff
members received phone calls and text messages attempting to intimidate them, in some cases
threatening death if the investigation continued. In this instance, the threats are being
investigated by local authorities.
                                                -10-


CONCLUSION AND AREAS FOR EXAMINATION 

        Although the examples provided in this report reflect only a portion of our work in this area,
we feel that they can effectively be applied to food assistance programs worldwide. Greater
attention to oversight and preventing fraudulent schemes involving food aid will be essential as
USAID prepares to implement programs with both existing and supplemental funding. In light of the
types of problems identified in OIG’s audits and investigations, USAID might want to consider the
following suggestions to avoid recurring issues:

       Security and Control Policies — Conduct an assessment of overall security and
control policies for Food for Peace programs to determine if there any improvements that
could be implemented globally to reduce the risk of fraudulent activity.

        Competition and Efficiency — Expand competition for food distribution services and
review contractor operations to determine whether activities can be conducted more
efficiently.

        Contractor Responsibility — Hold contractors responsible for preventing loss of
funds and commodities by developing specific requirements (e.g., through bonding or by
requiring security and internal management procedures as part of the contract) to be placed on
contractors through the procurement process.

        Continuing Oversight — Conduct frequent area site visits to detect and discourage
thefts of commodities and ensure that the visits are random and unannounced.

      Performance Data — Take steps to verify the performance data being received from
cooperating sponsors.

      Recovery of Funds — Routinely follow up on loss claims to recover funds and put
procedures in place to ensure that cooperating sponsors achieve full cost recovery on
monetization transactions.

        These are just a few of the areas that USAID might examine as future food assistance
programs are implemented throughout the world. The Office of Inspector General hopes that
the report is beneficial to program implementers and looks forward to working with USAID as
it addresses critical issues related to food assistance in the months and years ahead.
